No. 20-

Sri Me *ttpreme Court of the ainiteb irptate#
JEFF SCHULZ, ELLEN SCHULZ, LIZ CEDERGREEN, DAVID MARTIN, LINDSEY MCDOWELL
GEORGE NORRIS, NATHAN ORONA, AND KATHRYRN OSTROM, AS TRUSTEES OF THE FIRST
PRESBYTERIAN CHURCH OF SEATTLE, A WASHINGTON NONPROFIT CORPORATION,
PETITIONERS
U.
THE PRESBYTERY OF SEATTLE, ET AL., RESPONDENTS
CERTIFICATE OF SERVICE
I, as a member of the Supreme Court bar, certify that on August 28, 2020, three
copies of the Petition for a Writ of Certiorari in the above-captioned case were served
by U.S. Mail, as required by U.S. Supreme Court Rule 29.5(c), on the following:
ROBERT B. MITCHELL
PETER A. TALEVICH
K&L Gates LLP
925 Fourth Avenue, Suite 2900
Seattle, WA 98104-1158
Counsel for Respondents
The following email addresses have also been served electronically:
rob.mitchell@klgates.com
peter.talevich@klgates.com

Steffen 9V. Johnson
Wilson Sonsini Goodrich & Rosati
Counsel for Petitioners

